TN

sown, CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
ANITA SMITH,
Petitioner,
Vv.
VESTAVIA HILLS BOARD OF EDUCATION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8867 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

, GENERAL BOTARY-State of ebraska
RENEE J, GOSS
My Comm. Exp. September 6, 2028

   

 

Kense. 9. tsa Ondeaw th: hh

Notary Public Affiant 3R34
